No. 20-843

 

In THE
Supreme Court of the Anited States

NEw YORK StaTE RIFLE & PISTOL ASSOCIATION, INC.,
ROBERT NASH, BRANDON KocH,
Petitioners,
Vv.

KEVIN BRUEN, in His Official Capacity as Acting Superinten-
dent of New York State Police, RICHARD J. MCNALLY, JR., in
His Official Capacity as Justice of the New York Supreme
Court, Third Judicial District, and Licensing Officer for Rens-
selaer County,

Respondents.

On Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit

BRIEF OF SECOND AMENDMENT LAW
PROFESSORS AS AMICI CURIAE IN SUPPORT OF
NEITHER PARTY

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,998 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 20, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
